                      U.S. SMALL BUSINESS ADMINISTRATION
                          OFFICE OF INSPECTOR GENERAL
                               Washington, DC 20416




                                                   Alert Memorandum
                                                   Issue Date: March 29, 2002
                                                   Report Number: 2-16


TO:            Arnold Rosenthal, Assistant Administrator for
               Portfolio Management, Office of Financial Assistance


FROM:          Robert G. Seabrooks,
               Assistant Inspector General for Auditing

SUBJECT:       [FOIA EX. 4] Review of Asset Sale [EX. 4] Due Diligence Contract

        The purpose of this memorandum is to bring to your attention two issues that we
identified during our on-going audit of asset sales due diligence contracts. The issues relate to
work performed by [FOIA EX. 4] and involve (i) validation of the due diligence contractor’s
cost data and (ii) erroneous conclusions concerning over-billing issues.

Background

        For each sale, SBA contracts with a transaction financial advisor and a due diligence
firm to assist with the program. SBA’s due diligence contractor ([FOIA EX. 4]) was awarded
due diligence service contracts for asset sale [FOIA EX. 4]. This report relates to a post
review performed by [FOIA EX. 4] on the due diligence contract awarded for asset sale
[EX.4].

        Issues discussed in this report originated from an anonymous source that alleged
[FOIA EX. 4] had submitted over $2 million in invoices (over-billing) to SBA for work it did
not complete. SBA hired an independent CPA firm ([FOIA EX. 4]) to validate the magnitude
of the alleged billing concerns. [FOIA EX. 4] was requested to review third party reports
invoices submitted by [FOIA EX. 4] for Asset Sale [EX.4] to determine if [FOIA EX. 4]
internal audit sufficiently corrected the errors reported in sale number [EX.4] and verify that
the amounts owed to SBA were also correct. [FOIA EX. 4] presented a final report to SBA
containing results of their review. As a part of our audit of the asset sales due diligence
contracts, we reviewed [FOIA EX. 4] report, selected working paper documents, and
interviewed [FOIA EX. 4] Managing Partner.
Validation of the Due Diligence Contractor’s Cost Data
       [FOIA EX. 4] were engaged to perform an agreed upon procedures review in
accordance with applicable AICPA standards. Accordingly, it was required to exercise due
professional care in the performance of the engagement.
        Auditors who use computer-generated data to support a finding should perform tests to
ensure the reliability of that data. Data reliability is tested by (a) confirming computer-
processed data with product users; (b) comparing computer-processed data with source
documents; (c) conducting physical counts and inspections; (d) reviewing output listings for
completeness, obvious errors, and reasonableness of values; (e) tracing source documents to
computer output; (f) recalculating computations; and/or (g) developing additional tests
deemed necessary to validate data reliability.
        [FOIA EX. 4] used the due diligence contractor provided computer-generated data to
support audit findings without performing tests to ensure data reliability. Specifically, they
did not compare the computer-processed data with source documents. To illustrate, our
review of [FOIA EX. 4] working paper documents did not disclose any support, documentary
or otherwise, for Duplication of Third Party Reports (TPRs) and Loan Numbers (Attachment
C) of [FOIA EX. 4] Report. Without testing of data base transactions there is no assurance
that the data is correct.
        The Managing Partner, [FOIA EX. 4] told us the support consisted of a very large
computer database maintained at his office that nearly “crashed” the equipment. Moreover,
he acknowledged that the database used to support the Report was not validated for reliability
and that transaction testing was not accomplished. He stated these things were not
accomplished because “they were not included in the scope of the agreed upon (agreement
with SBA) procedures.” Further, he stated that to validate the database and perform
transaction testing was outside the scope of his review. Particularly, he stated that SBA did
not ask him to perform a comprehensive audit.
Over-Billed Amount per the Third Party Reported Rates Analysis (Attachment B) is
Incorrect
        We reviewed the tables presented in [FOIA EX. 4] final report and found numerous
mathematical errors. Not considering the above-mentioned deficiencies, the over-billed
amount of $620,996 per Attachment B of the [FOIA EX. 4] Report was not calculated
correctly as illustrated in the following table:

            TPR Type                [FOIA EX. 4]      [FOIA EX. 4]        OIG           OIG          Difference
                                      Quantity          Amount           Quantity      Amount         Amount
Borrower Credit Report                       18,129            $18,129      18,129         $18,129
Broker Price Opinion                          8,254          1,740,041       8,254       1,794,498      ($54,457)
Drive By Appraisal                               25              7,500          25           7,500
Full Appraisal                                1,077          2,477,100       1,077       2,477,100
Market Survey                                 1,064            186,200       1,064         185,240           960
Phase 1 Environmental                           129            251,550         129         251,550
Title Searches                                9,989          2,591,980       9,989       3,037,525      (445,545)
Transaction Screen                              166            141,100         166         141,100
UCC Searches                                  6,119            689,839       6,119         740,399       (50,560)
Borrower Asset Search                           968            117,128         968         117,128
Borrower Bankruptcy Report                   48,574            109,833      48,574         228,750      (118,917)
Guarantor Asset Search                          841            101,761         841         101,761
Regulatory Environmental                        142             63,900         142          63,900
Totals/                                      95,477         $8,496,061      95,477      $9,164,580

1/ Reported amount billed to SBA assumed accurate for purposes of this illustration.

                                                       2
        We found the differences noted above occurred because of tiers of volume (payment
scale) errors, and/or computation errors. For example, in calculating the amount due [FOIA
EX. 4] for Title Searches, we found the correct amount totaled $3,037,525, not $2,591,980, a
difference of $445,545. Specifically, [FOIA EX. 4] erred because the number of loans listed
did not match the contracted payment scale for quantity discounts. (See attached [FOIA EX.
4] Table A-1 and OIG Table A-2).

        The payment scale reduced the payment rate as the volume increased. For example,
[FOIA EX. 4] was supposed to be paid $310 per title search for the first 1,000 searches, $305
per search for the next 1,500 searches, $300 for the next 2,500 searches and so forth.
Contrasting these tables illustrates that [FOIA EX. 4] noted loan tiers in Table A-1, Column B
(Disaster Business category) did not match the payment scale shown in Table A-1, Column A.
For instance, while [FOIA EX. 4] correctly calculated the payment using 1,000 title searches
at the correct $300 level, they incorrectly calculated each succeeding tier by using 1,000 title
searches in each tier rather that the amount identified in the payment scale. We also noted a
similar deficiency for Disaster Home, Column E. Consequently, rate extension totals were
incorrect.

        Furthermore, [FOIA EX. 4] addition of the extended totals was also incorrect because
only the first "4 of the 6 cells" listed (Table A-1, Column. D.), were picked-up equaling
$1,210,000 apparently due to an error in the spreadsheet formula. With the changes needed to
scale, rate extensions, and additions, we concluded the correct total for Column D should have
been $1,649,365.

        We brought this matter to the attention of the Managing Partner of [FOIA EX. 4] who
tentatively concurred with the results of our review. We also briefed the SBA Director of the
Asset Sales on the results of our review.

         As a result of [FOIA EX. 4] failure to validate information in the database combined
with the above mentioned errors, we question the reliability of the [FOIA EX. 4] report.

Recommendation

        We recommend that the Associate Administrator, Office of Financial Assistance take
the following action:

        1A. [FOIA EX. 4] database be validated and transaction testing be accomplished to
            ensure data accuracy and reliability prior to reaching a negotiated settlement with
            [FOIA EX. 4] on Asset Sale [EX. 4].

       Please provide your management response to the recommendations within 30 days
from the date of this report on the attached Recommendation Action Sheets (SBA Form
1824). Any questions you may have regarding this report may be directed to Garry Duncan,
Director, Credit Programs Group, at 202-205-7732.




                                               3
4
